Appendix A

United States v. Sauzo
United States Court of Appeals for the Fifth Circuit
May 6, 2021, Filed
No. 19-51138
Reporter
846 Fed. Appx. 306 *;2021 U.S. App. LEXIS 13534 **;2021 WL 1826966
UNITED STATES OF AMERICA, PlaintiffAppellee, versus CARLOS SAUZO, Defendant—
Appellant.
Notice: PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32.1
GOVERNING
THE
CITATION
TO
UNPUBLISHED OPINIONS.

[*306] Per Curiam:*
Carlos Sauzo, federal prisoner # 99523-038, moves
for a certificate of appealability (COA) to appeal
the district court's merits denial of his 28 U.S.C. §
2255 motion that challenged his guilty plea
conviction and 120-month sentence for conspiracy
to possess with intent to distribute heroin. He also
seeks to appeal the disposition of his § 2255 motion
without an evidentiary hearing.

Prior History: [**1] Appeal from the United
States District Court for the Western District of
Texas. USDCNo. 5:17-CV-1021, USDC No. 5:14- Sauzo argues his trial counsel rendered ineffective
CR-71-5.
assistance by advising him that he would be
sentenced to 40 to 60 months in prison, with a
United States v. Sauzo, 768 Fed. Appx. 284, 2019
credit for time served. To the extent that [**2] he
U.S. App. LEXIS 12617, 2019 WL 1868649 (5th
argues his counsel was ineffective in failing to
Cir. Tex., Apr. 25, 2019)
object to the district [*307] court's application of
the supervisory role enhancement under U.S.S.G. §
Disposition: COA DENIED; IFP DENIED.
3B1.1 (b), we will not consider his argument
Counsel: For United States of America, Plaintiff because he first raised it in his COA motion in this
Appellee: Joseph H. Gay, Jr., Assistant U.S.
court. See Henderson v. Cocfaell, 333 F.3d 592,
Attorney, U.S. Attorney's Office, Western District
605 (5th Cir. 2003). Also, he has failed to brief, and
of Texas, San Antonio, TX.
thus abandoned, his claim that his counsel was
Carlos Sauzo, also known as Felix Manuel Negron, ineffective in failing to challenge the sufficiency of
the factual basis for his guilty plea. See Yohey v.
also known as Miguel Rivera, also known as Felix
Collins, 985 F.2d 222, 224-25 (5th Cir. 1993).
Antonio Negron, Jr., also known as Carlos Emilio
Saurzo-Martinez, also known as Carlos SuasoA COA may issue if the movant makes "a
Martinez, also known as Miguel Antonio Rivera,
substantial showing of the denial of a constitutional
Defendant - Appellant, Pro se, McRae Helena, GA. right." 28 U.S.C. § 2253(c)(2); see Miller-El v.
Judges: Before WILLETT, HO, and DUNCAN, .
Circuit Judges.

Cockrell, 537 U.S. 322, 336, 123 S. Ct. 1029, 154
L. Ed. 2d 931 (2003). Where, as here, the district

Opinion
* Pursuant to 5th Circuit Rule 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Circuit Rule
47.5.4.

Appendix A

United States v. Sauzo
United States Court of Appeals for the Fifth Circuit
May 6, 2021, Filed
No. 19-51138
Reporter
846 Fed. Appx. 306 *; 2021 U.S. App. LEXIS 13534 **; 2021 WL 1826966
UNITED STATES OF AMERICA, PlaintiffAppellee, versus CARLOS SAUZO, Defendant—
Appellant.
Notice: PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32.1
GOVERNING
THE
CITATION
TO
UNPUBLISHED OPINIONS.

[*306] Per Curiam:*
Carlos Sauzo, federal prisoner# 99523-038, moves
for a certificate of appealability (COA) to appeal
the district court's merits denial of his 28 U.S.C. §
2255 motion that challenged his guilty plea
conviction and 120-month sentence for conspiracy
to possess with intent to distribute heroin. He also
seeks to appeal the disposition of his § 2255 motion
without an evidentiary hearing.

Prior History: [**1] Appeal from the United
States District Court for the Western District of
Texas. USDCNo. 5:17-CV-1021, USDC No. 5:14- Sauzo argues his trial counsel rendered ineffective
CR-71-5.
assistance by advising him that he would be
sentenced to 40 to 60 months in prison, with a
United States v. Sauzo, 768 Fed. Appx. 284, 2019
credit for time served. To the extent that [**2] he
U.S. App. LEXIS 12617, 2019 WL 1868649 (5th
argues his counsel was ineffective in failing to
Cir. Tex, Apr. 25,2019)
object to the district [*307] court's application of
the supervisory role enhancement under U.S.S.G. §
Disposition: COA DENIED; IFP DENIED.
3B 1.1(b), we will not consider his argument
Counsel: For United States of America, Plaintiff because he first raised it in his COA motion in this
Appellee: Joseph H. Gay, Jr, Assistant U.S.
court. See Henderson v. Cockrell, 333 F.3d 592,
Attorney, U.S. Attorney's Office, Western District
605 (5th Cir. 2003). Also, he has failed to brief, and
of Texas, San Antonio, TX.
thus abandoned, his claim that his counsel was
Carlos Sauzo, also known as Felix Manuel Negron, ineffective in failing to challenge the sufficiency of
the factual basis for his guilty plea. See Yohey v.
also known as Miguel Rivera, also known as Felix
Collins, 985 F.2d 222, 224-25 (5th Cir. 1993).
Antonio Negron, Jr, also known as Carlos Emilio
Saurzo-Martinez, also known as Carlos SuasoMartinez, also known as Miguel Antonio Rivera,
Defendant - Appellant, Pro se, McRae Helena, GA.
Judges: Before WILLETT, HO, and DUNCAN,
Circuit Judges.

A COA may issue if the movant makes "a
substantial showing of the denial of a constitutional
right." 28 U.S.C. § 2253(c)(2); see Miller-El v.
Cockrell, 537 U.S. 322, 336, 123 S. Ct. 1029, 154
L. Ed. 2d 931 (2003). Where, as here, the district

Opinion
‘Pursuant to 5th Circuit Rule 47.5. the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Circuit Rule
47.5.4.

Page 2 of 2
846 Fed. Appx. 306, ‘307; 2021 U.S. App. LEXIS 13534, “2

court denies relief on the merits, the movant must
show that jurists of reason could debate the district
court's resolution of his constitutional claims or that
the issues were adequate to deserve encouragement
to proceed further. See Slack v. McDaniel, 529 U.S.
473, 483-84, 120 S. Ct. 1595, 146 L. Ed. 2d 542
(2000). Sauzo has not made the required showing.
Accordingly, his motion for a COA is denied. His
motion for leave to proceed in forma pauperis (1FP)
is likewise denied.
As Sauzo fails to make the required showing for a
COA on his constitutional claims, we do not reach
whether the district court erred by denying an
evidentiary hearing. See United States v. Davis, 971
F.3d 524, 534-35 (5th Cir. 2020), petition for cert,
filed (U.S. Mar. 18, 2021) (No. 20-7553).
COA DENIED; [**3] IFP DENIED.

Knd ofDocumcnt

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 1 of 16
Appendix B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
CARLOS SAUZO,
#99523-038
Movant,

§
§
§
§
§

VS.

§
§

UNITED STATES OF AMERICA,

§
§
§

Respondent.

CIVIL ACTION NO. SA-17-CA-1021-FB
CRIMINAL NO. SA-14-CR-71-FB-5

ORDER DENYING MOVANT CARLOS SAUZO’S MOTION TO VACATE.
SET ASIDE. OR CORRECT SENTENCE PURSUANT TO 28 U.S.C. S 2255
Before the Court is the Pro Se Motion Pursuant to Title 28 U.S.C. § 2255 filed by the
movant, Carlos Sauzo, to vacate, set aside, or correct his sentence imposed following a conviction
for conspiracy to possess with intent to distribute heroin (ECF No. 485, hereinafter “§ 2255
motion”); the Government’s Response to Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside or
Correct Sentence (ECF No. 530, hereinafter “Response”); and Movant’s Reply to the Government’s
Opposition to the Title 28 U.S.C. § 2255 (ECF No. 532, hereinafter “Reply”). For the following
reasons, the § 2255 motion is DENIED.

BACKGROUND
1. Factual Background1
Movant Sauzo’s conviction in this case arises from his involvement in a large-scale narcotics
organization responsible for smuggling narcotics and illegal drug proceeds from Mexico through the
Laredo, Texas, Port of Entry and transporting the narcotics to northern parts of the United States,
including New York and Boston. An investigation by Homeland Security Investigations (HSI)
1 The factual background reflects the facts as set forth in the factual basis for the guilty plea and the Presentence Report
(PSR). See ECF Nos. 442 & 458.

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 2 of 16

revealed the narcotics originated from the Sinaloa Cartel in Mexico. The narcotics organization’s
leader, Jorge Alberto Mojica, utilized tractor trailers, eighteen-wheelers, and passenger vehicles with
hidden compartments to transport the narcotics. Mr. Mojica also recruited individuals to serve in
various capacities to assist the operation by packing the drugs in vehicles, smuggling the drugs into
the United States through the Laredo Port of Entry, and delivering the products to employees of
movant Sauzo, a resident of Connecticut.

Movant Sauzo, who was identified as a

manager/supervisor of the organization, employed various individuals to travel south to receive the
shipments from Jorge Mojica’s employees and to transport the narcotics to New York and Boston
for distribution. An approximate total of 19.3 kilograms of heroin, 11.43 kilograms of cocaine, and
between $200,000 and $400,000 in United States currency were transported during the time frame
of the conspiracy charged in this case.
2. Criminal Proceedings
On July 23,2013, Carlos Sauzo pleaded guilty to trafficking heroin in state court in Boston,
Massachusetts, based on his involvement in the criminal enterprise described above, and was
sentenced to three years and six months of imprisonment in the Massachusetts Department of
Corrections. (ECF No. 458 at 13). On February 5, 2014, a federal grand jury returned a four-count
indictment naming Carlos Sauzo and ten co-defendants. (ECF No. 3). Count One of the indictment
charged Carlos Sauzo with conspiracy to distribute and possess with intent to distribute one kilogram
or more of heroin and five kilograms or more of cocaine, in violation of 21 U.S.C. §§ 841 (a)(l),
(b)(1)(A), and 846. (Id. at 1-2).
On July 21,2016, Carlos Sauzo was charged by superseding information with conspiracy to
distribute and possess with intent to distribute one hundred grams or more of heroin, in violation of
21 U.S.C. §§ 841(a)(1), (b)(1)(B), and 846. (ECF No. 447). Mr. Sauzo waived indictment and

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 3 of 16

pleaded guilty to Count One of the superseding information pursuant to a written Plea Agreement.
(ECF Nos. 442, 448, & 449). In exchange for Mr. Sauzo’s agreement to plead guilty, the
Government agreed to dismiss any remaining counts against him and recommend a three-level
downward adjustment for acceptance of responsibility at sentencing, and that his sentence run
concurrently with his sentence in the Massachusetts state case. (ECF No. 442 at 11).
The PSR reflected a base offense level of 34, pursuant to U.S.S.G. § 2D1.1(c)(3), because
Carlos Sauzo was responsible for the possession of 11,935 grams of heroin and 2,982 grams of
cocaine, for a total of 12,531.9 kilograms when converted to their marijuana equivalency. (ECF No.
458 at 9). Three levels were added pursuant to U.S.S.G. § 3B 1.1(b) based on Mr. Sauzo’s role as a
manager or supervisor and because the criminal activity involved five or more participants or was
otherwise extensive. (Id.). Two levels were deducted for acceptance of responsibility pursuant to
U.S.S.G. § 3E1.1 (a), and one additional level was deducted for acceptance ofresponsibility pursuant
to U.S.S.G. § 3El.l(b), resulting in a total offense level of 34. (Id.).
Movant Sauzo was subject to a statutory mandatory minimum term of imprisonment of 5
years and a maximum term of 40 years, pursuant to 21 U.S.C. §§ 841(a)(1) and 841(b)(1)(B). (Id.
at 16). Based on a total offense level of 34 and a criminal history category of II, movant Sauzo’s
advisory Guidelines sentencing range was calculated as 168 months to 210 months. (Id.). On July
21, 2016, this Court sentenced Carlos Sauzo to a below-Guidelines sentence of 120 months of
imprisonment with credit for time served while in custody for the federal offense, five years of
supervised release, and a $100 special monetary assessment. (ECF Nos. 460 & 464).
3. Section 2255 Motion
The § 2255 motion is before the Court following remand from the United States Court of
Appeals for the Fifth Circuit. Movant Sauzo filed the § 2255 motion and affidavit in support on

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 4 of 16

October 10, 2017. (ECF Nos. 485 & 486). Having found that movant Sauzo waived his pre­
conviction claims and his right to appeal his sentence or contest it in a § 2255 collateral proceeding
by pleading guilty, this Court denied movant Sauzo’s § 2255 motion prior to service. (ECF No. 498).
Movant Sauzo appealed, and the Fifth Circuit vacated the judgment denying the § 2255 motion and
remanded the matter back to this Court for further proceedings. (ECF No. 527). Thereafter, the
Government filed its Response along with the declaration of movant Sauzo’s attorney, Bernie
Martinez. (ECF Nos. 530 & 530-1). Movant Sauzo filed a Reply. (ECF No. 532). Therefore, the
§ 2255 motion is now ripe for review. Construed liberally, the § 2255 motion asserts two primary2
grounds for relief:
1. Counsel rendered ineffective assistance for failing to contest the Plea
Agreement’s factual basis, which is insufficient to support his guilty plea; and
2. Counsel’s ineffective assistance in promising movant Sauzo that he would
receive a sentence of at most sixty months with credit for time served on state
charges rendered his guilty plea involuntary.
(ECF No. 485).
APPLICABLE LAW
1. Legal Standard
A federal defendant may move to vacate, set aside, or correct his sentence if: (1) the
imposition of the sentence was in violation of the Constitution or the laws of the United States; (2)
the District Court that imposed the sentence lacked jurisdiction; (3) the sentence imposed was in
excess of the maximum authorized by law; or (4) the sentence is otherwise subject to collateral
attack. 28 U.S.C. § 2255; United States v. Placente, 81 F.3d 555, 558 (5th Cir. 1996). Thus, § 2255
post-conviction relief is reserved for errors of constitutional dimension and other injuries that could
not have been raised on direct appeal and, if left unaddressed, would result in a complete miscarriage
2 To the extent movant Sauzo asserts additional grounds, they are addressed in the Discussion section of this order.

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 5 of 16

ofjustice. See, e.g., United States v. Cervantes, 132 F.3d 1106,1109 (5th Cir. 1998); United States
v. Payne, 99 F.3d 1273, 1281 (5th Cir. 1996).
2. Waiver of the Right to Appeal
A defendant may waive his right to direct appeal and collateral attack of a conviction and
sentence by means of a plea agreement as long as the waiver is both knowing and voluntary. See,
e.g., United States v. Bond, 414 F.3d 542,544 (5th Cir. 2005); United States v. McKinney, 406 F.3d
744, 746 (5th Cir. 2005); United States v. Portillo, 18 F.3d 290, 292 (5th Cir. 1994). As the Fifth
Circuit stated in Portillo:
[Wjhen the record of the Rule 11 hearing clearly indicates that a defendant has read
and understands his plea agreement, and that he has raised no question regarding a
waiver-of-appeal provision, the defendant will be held to the bargain to which he
agreed, regardless of whether the court specifically admonished him concerning the
waiver of appeal.
McKinney, 406 F.3d at 746 (quoting Portillo, 18 F.3d at 293). A district court must first determine
whether the waiver was voluntary and knowing, and then evaluate whether the waiver “applies to
the circumstances at hand, based upon the plain language of the agreement.” Bond, 414 F.3d at 544
(citing McKinney, 406 F.3d at 746-47). A defendant knowingly enters a waiver when “the defendant
fully understands the nature of the right and how it would likely apply in general in the
circumstances - even though the defendant may not know the specific detailed consequences of
invoking it.” United States v. Ruiz, 536 U.S. 622, 629 (2002). A plea qualifies as intelligent when
the criminal defendant enters it after receiving “real notice of the true nature of the charge against
him, the first and most universally recognized requirement of due process.” Bousley v. United States,
523 U.S. 614, 618 (1998).
The Supreme Court’s decision in Boykin v. Alabama requires a hearing prior to entry of a
guilty plea, at which the Court must elicit an affirmative showing that the decision to plead guilty

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 6 of 16

was voluntarily and intelligently made. Boykin v. Alabama, 395 U.S. 238, 243 (1969); Matthew v.
Johnson, 201 F.3d 353, 367 n.22 (5th Cir. 2000). Rule 11 of the Federal Rules of Criminal
Procedure provides procedural safeguards for assuring guilty pleas are voluntary and knowing, by
requiring a judge to ensure the defendant understands the law governing his crime in relation to the
facts of his case, as well as his rights as a criminal defendant. United States v. Vonn, 535 U.S. 55,
62 (2002).
However, a determination ofwhether a defendant understands the consequences ofhis guilty
plea, including the waiver of his right to appeal or collaterally attack his conviction and sentence,
does not require the trial court to conclude the defendant has a perfect understanding of the
consequences; the Court must only establish the defendant understands the charges and has a realistic
understanding of the consequences. United States v. Gracia, 983 F.2d 625, 627-28 (5th Cir. 1993).
The Court must also ensure there was no coercion to enter the guilty plea. Id. Compliance with the
admonishments required under Rule 11 “provides prophylactic protection for the constitutional rights
involved in the entry of guilty pleas.” Id. at 627.
3. Ineffective Assistance of Counsel
Even if a defendant waives his right to appeal or collaterally attack his plea and sentence, he
can avoid those waivers based on a claim of ineffective assistance of counsel if he shows “the
claimed assistance directly affected the validity of that waiver or the plea itself.” United States v.
White, 307 F.3d 336, 343 (5th Cir. 2002). An ineffective assistance of counsel claim in the context
of a guilty plea is subject to the same standard as any other ineffective assistance claim, i.e., the
standard set forth in Strickland v. Washington, 466 U.S. 668 (1984). To successfully state a claim
of ineffective assistance of counsel under Strickland, a prisoner must demonstrate counsel’s
performance was deficient and the deficient performance prejudiced his defense. Id. at 687. The

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 7 of 16

failure to establish either prong of the Strickland test requires a finding that counsel’s performance
was constitutionally effective. Id. at 696.
The proper standard for attorney performance is that of reasonably effective assistance. Id.
at 688. When a convicted defendant complains of the ineffectiveness of counsel’s assistance, the
defendant must show that, considering all the circumstances, counsel’s representation fell below an
objective standard of reasonableness. Id. A fair assessment of attorney performance requires that
every effort be made to eliminate the distorting effects of hindsight, to reconstruct the circumstances
of counsel’s challenged conduct, and to evaluate the conduct from counsel’s perspective at the time.
Id. at 687-89. To determine whether counsel’s performance was constitutionally deficient, courts
“indulge a strong presumption that counsel’s conduct falls within the wide range of reasonable
assistance.” Id. at 689. An attorney’s strategic choices, usually based on information supplied by
defendant and from a thorough examination of relevant facts and law, are virtually unchallengeable.
Jones v. Jones, 163 F.3d 285, 300 (5th Cir. 1998), cert, denied, 528 U.S. 895 (1999).
When a prisoner challenges his plea based on ineffective assistance of counsel, the
“prejudice” requirement “focuses on whether counsel’s constitutionally ineffective performance
affected the outcome of the plea process.” Hill v. Lockhart, 474 U.S. 52, 58 (1985). To satisfy this
requirement, the prisoner “must show that there is a reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would have insisted on going to trial.” Id. Reviewing
courts must consider the totality of the evidence before the finder of fact in assessing whether the
result would likely have been different absent the alleged errors of counsel. Strickland, 466 U.S. at
695-96. In this analysis, a defendant’s sworn statements made to the Court when a guilty plea is
entered carry a strong presumption of verity, and the “subsequent presentation of conclusory

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 8 of 16

allegations unsupported by specifics is subject to summary dismissal, as are contentions that in the
face of the record are wholly incredible.” Blackledge v. Allison, 431 U.S. 63, 74 (1977).
With respect to sentencing issues, the prisoner must establish a reasonable probability that,
but for counsel’s errors with respect to sentencing matters, he would have received less time in
prison. See United States v. Grammas, 376 F.3d 433,436-8 (5th Cir. 2004); Glover v. United States,
531 U.S. 198,203 (2001).
DISCUSSION
1. Summary of the Briefing
In the § 2255 motion, movant Sauzo first alleges that Mr. Martinez rendered ineffective
assistance for advising him to plead guilty without contesting the factual basis, which is insufficient
to support the guilty plea. (ECF No. 485 at 18-21). Movant Sauzo further alleges that Mr. Martinez
failed to produce or discuss with him any evidence linking him to the drug conspiracy in this case
and failed to investigate “all of the allegations in the plea agreement against [him].” (Id. at 4-5,21).
Instead, movant Sauzo alleges, Mr. Martinez “just told [him] that he faced a sentence of no more
than 60 months and would receive a 4 year credit on that 60 months,” for time served on related state
charges, meaning he would serve “a little under one year in Texas” and would be held accountable
for at most 100 grams of heroin.3 (Id. at 5, 21-23).
Based on counsel’s alleged promise, movant Sauzo avers he accepted and signed the Plea
Agreement “without requesting that it be read to him in full explicit detail” and without Mr.
Martinez explaining the “relevant nature and impact” of the Plea Agreement. (Id. at 21 -23). Movant
Sauzo argues that his guilty plea was involuntary because it was induced by Mr. Martinez’s false

3 In some places movant Sauzo alleges counsel guaranteed a sentencing range of forty to sixty months, but in other
places he alleges counsel guaranteed a range of forty-one to sixty months. Compare ECF No. 485 at 6 with ECF No.
485 at 22.

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 9 of 16

promise of a sixty-month maximum sentence with credit for time served on the related state charges.
(Id. at 22). Movant Sauzo denies his involvement in the drug-trafficking conspiracy and maintains
that, had Mr. Martinez properly investigated the allegations in the factual basis and explained them
to him, he would not have signed the Plea Agreement and would have insisted on going to trial. (Id.).
Movant Sauzo submitted a sworn affidavit attesting to the allegations in the § 2255 motion. (ECF
No. 486). In the affidavit, movant Sauzo further asserts Mr. Martinez “never explained... anything
about waivers, 2255s, direct appeals or anything.” (Id. at 4).
In response, the Government counters that the record establishes movant Sauzo’s guilty plea
was knowing and voluntary. (ECF No. 530 at 2-4). The Government further argues that Mr. Martinez
did not err in declining to challenge the factual basis in support of the guilty plea because the factual
basis described movant Sauzo’s involvement in the drug conspiracy with adequate specificity, and
movant Sauzo repeatedly affirmed, in writing and under oath, that the factual basis was true and
correct. (Id. at 4). Finally, the Government argues that movant Sauzo’s knowing and voluntary guilty
plea waived his claim alleging that counsel misadvised him regarding his sentencing exposure, and,
in any event, the claim is belied by the record. (Id. at 4-5).
In support of its Response, the Government submitted the sworn declaration ofMr. Martinez,
who responds, in relevant part, to movant Sauzo’s allegations as follows:
I was appointed to represent [movant Sauzo] on June 1,2016. My first meeting with
[movant Sauzo] was on June 2,2016. My second meeting with [movant Sauzo] was
on June 17, 2016 to discuss the discovery I had recently received from the
Government. On my third meeting with [movant Sauzo] on June 28, 2016,1 gave
[movant Sauzo] a copy of a proposed plea agreement and superseding indictment
which were to be filed in the case if [movant Sauzo] approved. I read both documents
to him in Spanish and explained their significance. I did not ask him to sign the plea
agreement at that time, but I advised him to think about the agreement, and that 1
would be back in a couple of days so he could tell me what he wanted to do. I met
with him for the fourth time on June 30, 2016, at which time he told me he wanted
to plead guilty. He signed the plea agreement on that date. His case was set for re-

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 10 of 16

arraignment and plea on July 21,2016, and two days before that, on July 19, 2016,
I met with him for the fifth time to make sure he still wanted to plead guilty and to
explain to him the procedure at the guilty plea hearing. At no time during the five
meetings prior to entry of his guilty plea, did [movant Sauzo] indicate to me that he
thought he was innocent and wanted to have a trial. His only concern was to
minimize his term of imprisonment, and particularly to see if he could [receive]
credit for the time he had already served in a related state case in Massachusetts.
I never told him that he was likely to receive a term of imprisonment in the 40-60
month range or that 60 months was the most he was looking at. I knew the count to
which he was pleading guilty carried a mandatory minimum of 60 months, so I never
would have told him a sentence of 40-60 months was likely.
[Movant Sauzo] now claims in his affidavit that he is innocent not only of the
charges in the San Antonio federal prosecution, but also in the Massachusetts state
prosecution. His plea agreement in the San Antonio case contained a detailed
description of the underlying factual basis upon which the Government’s case was
based. Based on my review of the discovery materials, the factual basis outlined in
the plea agreement was consistent with what I saw in the discovery. The plea
agreement also recited the range of punishment for the charge to which he was
pleading guilty, including the minimum imprisonment of 60 months. [Movant Sauzo]
expressed no reservations about the plea agreement when he signed it.
(ECF No. 530-1 at 1-2). In his Reply to the Government’s Response, Movant Sauzo argues, inter
alia, that the conflicting affidavits require an evidentiary hearing. (ECF No. 532 at 5-7).
2. The Record Establishes Movant Sauzo’s Guilty Plea Was Knowing and Voluntary
A defendant’s statements in open court pose a “formidable barrier in any subsequent
collateral proceeding” in which the defendant challenges his guilty plea. Blackledge, 431 U.S. at 74;
see also United States v. Reed, 719 F.3d 369,373 (5th Cir. 2013) (“[W]hen a defendant’s allegations
contradict his sworn testimony given at a plea hearing, we have required more than ‘mere
contradiction of his statements,’ typically ‘specific factual allegations supported by the affidavit of
a reliable third person.’”) (quoting United States v. Raetzsch, 781 F.2d 1149,1151 (5th Cir. 1986)).
Further, official documents, such as a signed plea agreement, are “entitled to a presumption of

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 11 of 16

regularity and are accorded great evidentiaryweight.”//ofr6sv.i?/tfc£/u/r«,752F.2d 1079,1081 (5th
Cir. 1985).
In signing the Plea Agreement, movant Sauzo acknowledged that Count One carried a
minimum term of imprisonment of five years and a maximum of forty years. (ECF No. 442 at 1).
He further acknowledged that he “discussed th[e] range of punishment with [his] attorney, and still
wants to plead guilty in this case.” (Id. at 2). Movant Sauzo acknowledged that he understood the
effect of the plea and that Mr. Martinez explained to him all the elements of the offense and that he
understood he was giving up a number of rights in pleading guilty. (Id.). He further acknowledged
that by pleading guilty, he is admitting that all of the allegations against him are true. (Id.).
Movant Sauzo further acknowledged that “no one, including his attorney, can guarantee the
outcome of this case regardless of what plea [he] enters, and no one can guarantee what sentence the
Judge may impose if [he] pleads guilty.” (Id. at 3). Movant Sauzo further acknowledged that he had
a full opportunity to discuss all the facts and circumstances of his case with his counsel, and has a
clear understanding of the charges and consequences of the plea. (Id. at 3-4). He acknowledged that
no one made any promises or offered any rewards in return for this guilty plea, other than those
contained in the Plea Agreement, and that “any estimate ofthe probable sentencing range that he may
receive from counsel... is not a promise, did not induce hi[s] guilty plea or this waiver, and does
not bind the Government, the Probation Office, or the Court.” (Id. at 4).
Movant Sauzo further waived his right to appeal his sentence and to contest it in any post­
conviction proceeding, “[Realizing the uncertainty in estimating what sentence he will ultimately
receive.” (Id. at 7). Movant Sauzo attested to the truth of the stipulated factual basis supporting the
plea and acknowledged that by pleading guilty, he “is admitting that all of the aforesaid allegations

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 12 of 16

against him are true.” {Id. at 11). Finally, in signing the Plea Agreement, Movant Sauzo attested to
the following:
I HAVE READ (OR HAD READ TO ME) THE ABOVE PLEA AGREEMENT
IN ITS ENTIRETY, AND THE AGREEMENT HAS BEEN FULLY
EXPLAINED TO ME BY MY ATTORNEY. I UNDERSTAND AND AGREE
TO THE TERMS SET FORTH IN IT. ADDITIONALLY, I HAVE READ (OR
HAD READ TO ME) THE FACTUAL BASIS CONTAINED HEREIN AND
AGREE TO THE FACTS SET FORTH IN THE FACTUAL BASIS.
{Id. at 13). Moreover, at rearraignment, this Court placed movant Sauzo under oath and informed
him of the charge to which he was pleading guilty as well as the minimum and maximum penalties.
(ECF No. 529 at 3-4). This Court further summarized the factual resume supporting the guilty plea,
and asked movant Sauzo, “Have you gone over those facts with Mr. Martinez as your lawyer?” to
which movant Sauzo replied, “Yes.” {Id. at 4-5). This Court then asked movant Sauzo, “And, to the
extent you were involved in those activities with those other people, are those facts true and correct
as to your involvement?” to which movant Sauzo replied, “Yes.” {Id. at 5).
Additionally, Mr. Martinez’s sworn affidavit indicates he visited Mr. Sauzo on five
occasions, during which time he explained the discovery to him, provided the movant a copy of the
Plea Agreement and superseding indictment which were to be filed in the case if movant Sauzo
approved, and read both documents to him in Spanish and explained their significance. (ECF No.
530-1 at 1-2). Mr. Martinez states he would not have told Mr. Sauzo a sentence in the range of forty
to sixty months was likely because the count to which he was pleading guilty carried a mandatory
minimum of sixty months of imprisonment. {Id.).
The record before the Court reflects movant Sauzo understood the charges against him, had
a realistic understanding of the consequences, and entered the guilty plea free of coercion.
Accordingly, the record leaves no doubt that the guilty plea was voluntarily and intelligently made.

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 13 of 16

Movant Sauzo’s allegations that Mr. Martinez’s ineffective assistance rendered the guilty
plea invalid are affirmatively contradicted by the record and fail to overcome the strong presumption
of verity accorded the evidence of record in this case.
Movant Sauzo’s claim in Ground One—that Mr. Martinez erred in advising him to accept
the Government’s plea offer without challenging the factual basis in support of the guilty plea—is
without merit. The Rule 11 factual basis for a guilty plea “must be precise enough and sufficiently
specific to show that the accused’s conduct on the occasion involved was within the ambit of that
defined as criminal.” United States v. Johnson, 546 F.2d 1225, 1226 (5th Cir. 1977). Here, movant
Sauzo pleaded guilty to the charge of conspiracy to possess with intent to distribute 100 grams or
more of heroin. The factual basis that movant Sauzo swore was true and correct establishes his role
as a manager/supervisor of an extensive drug trafficking conspiracy, which involved the importation
of heroin and cocaine from Mexico to northern parts of the United States. The factual basis details
Mr. Sauzo’s conduct in making logistical arrangements concerning the transportation ofand payment
for the smuggled narcotics. (ECF No. 442 at 8). In the § 2255 motion, movant Sauzo highlights what
he perceives are logical inconsistencies in the factual basis, however the factual basis provides ample
basis for Mr. Sauzo’s guilty plea and conviction. Because the factual basis was sufficient, Mr.
Martinez did not perform deficiently by failing to raise a meritless objection to it.
As to Ground Two, although a guilty plea may be invalid if induced by defense counsel’s
false promises, movant Sauzo’s claim that his plea was induced by Mr. Martinez’s promise of a
sixty-month maximum sentence with credit for time served on related state charges is without merit
and may be dismissed without an evidentiary hearing. Not only are movant Sauzo’s allegations
controverted by the evidence in the record, Mr. Sauzo has failed to present independent indicia in
the form of affidavits from reliable third parties establishing the terms of the alleged promise, the

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 14 of 16

time and place of the promise, or the identity of any eyewitnesses to the promise. See United States
v. Cervantes, 132F.3d 1106,1110 (5th Cir. 1998); United States v. Soliz, 359 F. App’x 466 (5th Cir.
2009); United States v. Merrill, 340 F. App’x 976, 978 (5th Cir. 2009). Movant Sauzo’s
uncorroborated, self-serving affidavit to the contrary is insufficient because it is inconsistent with
the bulk of his own conduct, and he fails to meet his burden of proof in light of the other evidence
in the record.
Similarly, to the extent the movant asserts his guilty plea was involuntary because Mr.
Martinez failed to explain the allegations against him, the contents of the Plea Agreement, and the
nature and impact of the Plea Agreement, this claim is belied by the record as set forth in detail
above. Finally, insofar as movant alleges Mr. Martinez was ineffective for failing to properly
investigate his case, that claim is also without merit. Counsel has a duty to make reasonable
investigations or to make a reasonable decision that a particular investigation is unnecessary.
Wiggins v. Smith, 539 U.S. 510, 521-22 (2003). In assessing unreasonableness, a heavy measure
of deference must be applied to counsel’s judgments. See id. A defendant who alleges a failure to
investigate on the part of his counsel must allege with specificity what exculpatory evidence could
have been uncovered by a more thorough investigation by his counsel and must show that a
reasonable attorney would have investigated further. See United States v. Lewis, 786F.2d 1278 (5th
Cir. 1986); Alexander v. McCotter, 115 F.2d 595 (5th Cir. 1985); Gray v. Lucas, 677 F.2d 1086 (5th
Cir. 1982). Movant Sauzo fails to do so here and has therefore failed to meet his burden under
Strickland.
EVIDENTIARY HEARING
An evidentiary hearing on a § 2255 motion is required “[ujnless the motion and the files and
records of the case conclusively show that the prisoner is entitled to no relief.” 28 U.S.C. § 2255(b).

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 15 of 16

A district court’s decision not to hold an evidentiary hearing is reviewed for abuse of discretion.
United States v. Edwards, 442 F.3d258,264 (5th Cir. 2006) (quoting Cervantes, 132F.3dat 1110).
Because the issues presented in this case can be resolved on the basis of the record, the Court finds
an evidentiary hearing is not required.
CONCLUSION
Movant Sauzo entered a knowing and voluntary guilty plea pursuant to a Plea Agreement.
Movant Sauzo fails to show the alleged ineffective assistance of counsel in his plea proceedings
rendered his guilty plea involuntary. Accordingly, movant Sauzo’s § 2255 motion is DENIED.
CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of appeals from a final order in a proceeding under
§ 2255 “unless a circuit justice or judge issues a certificate of appealability.” 28 U.S.C.
§ 2253(c)(1)(A). Pursuant to Rule 11 of the Federal Rules Governing Section 2255 Proceedings, the
District Court must issue or deny a certificate of appealability when it enters a final order adverse
to the movant.
A certificate of appealability may issue only if a movant has made a substantial showing of
the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme Court fully explained the
requirement associated with a “substantial showing of the denial of a constitutional right” in Slack
v. McDaniel, 529 U.S. 473, 484 (2000). In cases where the Court rejects a movant’s constitutional
claims on the merits, “the [movant] must demonstrate that reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong.” Id.
In this case, reasonable jurists could not debate the denial of Movant Sauzo’s § 2255 motion
on substantive or procedural grounds, nor find that the issues presented are adequate to deserve

Case 5:14-cr-00071-FB Document 534 Filed 10/30/19 Page 16 of 16

encouragement to proceed. Miller-El v. Cockrell, 537 U.S. 322,327 (2003) (citing Slack, 529 U.S.
at 484). Thus, a certificate of appealability shall not be issued.
Accordingly,
IT IS HEREBY ORDERED that Movant Carlos Sauzo’s Motion to Vacate, Set Aside, or
Correct Sentence Under 28 U.S.C. § 2255 (ECF No. 485) is DENIED.
IT IS FURTHER ORDERED that all pending motions, if any, are DISMISSED AS
MOOT, and this case is now CLOSED.
FINALLY, IT IS ORDERED that a certificate of appealability is DENIED.
It is so ORDERED.
SIGNED this 30th day of October, 2019.

FRED-^IERY
UNITED STATES DISTRICTdlJDGE

